HHS/OIG, Audit - "Review of High-Dollar Part B Claims Processed by Cahaba
Government Benefits Administrators Carrier No. 00512 for the Period January 1,
2004, Through December 31, 2006," (A-04-08-00037)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Part B
Claims Processed by Cahaba Government Benefits Administrators Carrier No. 00512
for the Period January 1, 2004, Through December 31, 2006," (A-04-08-00037)
June 20, 2008
Complete
Text of Report is available in PDF format (198 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
During calendar years 2004-2006, Cahaba Government Benefit
Administrators Carrier No. 00512 (the contractor) overpaid providers in Mississippi
$64,000.  The contractor made the overpayments because six providers incorrectly
claimed excessive units of service.  In addition, the Medicare claims processing
systems did not have sufficient edits in place during calendar years 20042006
to detect and prevent payments for these types of erroneous claims.  We
recommended that the contractor
recover the identified
overpayments.  The contractor agreed with our
recommendations.